fJ
~"-.vtClJ"(I


                   DEPARTMENT OF HEALm & HUMAN SERVICES                                            Office of Inspector General

                                                                                                   Office of Audit Services
                                                                                                   1100 Commerce, Room 632
                                                                                                   Dallas, TX 75242



                                                                                       September 24, 2008
               Report Number: A-06-07-00011

               Mr. Adolfo M. Valadez, M.D., M.P.H.
               Assistant Commissioner Prevention and Preparedness Division
               Texas Department of State Health Services
               1100 West 49th Street
               P.O. Box 149347
               Austin, Texas 78756

               Dear Mr. Valadez:

               Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
               General (OIG), final report entitled "Review of Texas Bioterrorism Hospital Preparedness
               Program." We will forward a copy of this report to the HHS action official noted on the
               following page for review and any action deemed necessary.

               The HHS action official will make final determination as to actions taken on all matters reported.
               We request that you respond to this official within 30 days from the date of this letter. Your
               response should present any comments or additional information that you believe may have a
               bearing on the final determination.

               Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
               Public Law 104-231, OIG reports generally are made available to the public to the extent the
               information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
               will be posted on the Internet at http://oig.hhs.gov.

               If you have any questions or comments about this report, please do not hesitate to call me, or
               contact Cheryl Blackmon, Audit Manager, at (214) 767-9205 or through e-mail at
               Cheryl.Blackmon@oig.hhs.gov. Please refer to report number A-06-07-00011 in all
               correspondence.

                                                            Sincerely,



                                                            Gordon L. Sato
                                                            Regional Inspector General
                                                             for Audit Services


               Enclosure
Page 2 - Mr. Adolfo M. Valadez, M.D., M.P.H.


Direct Reply to HHS Action Official:

      Mr. Jay Petillo
      Director of Resource
      Planning and Evaluation
      Assistant Secretary for Preparedness and Response
      U.S. Department of Health and Human Services
      Room 624D
      200 Independence Avenue, SW
      Washington, DC 20201

      Ms. Ellen Radish
      Program Analyst
      Health Resources and Services Administration
      U.S. Department of Health and Human Services
      5600 Fishers Lane
      Rockville, Maryland 20857
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





      REVIEW OF TEXAS 

   BIOTERRORISM HOSPITAL 

   PREPAREDNESS PROGRAM
 





                     Daniel R. Levinson
 

                      Inspector General 


                      September 2008
 

                       A-06-07-00011
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All-Hazards Preparedness Act (P.L. 109-417, December 19, 2006).

The Texas Department of State Health Services (the State agency) entered into cooperative
agreements with HRSA to carry out Program activities and, for the period September 1, 2004,
through August 31, 2006, expended Program funds totaling $69,625,545. Subsequently, the
State agency entered into subrecipient contracts with 19 regional advisory councils, including the
Southwest Texas Regional Advisory Council (STRAC), and the Dallas-Fort Worth Hospital
Council (DFWHC) to administer the HRSA grant.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs that were reasonable,
allocable, and allowable.

SUMMARY OF FINDINGS

Of the $11,384,210 in Program expenditures that we reviewed, the State agency claimed
$637,215 in unallowable and undocumented expenditures. Because the State agency reimbursed
$150,138 of this amount for unallowable hurricane expenditures, we are questioning only
$487,077 of these costs (unallowable expenditures totaling $465,394 and undocumented
expenditures totaling $21,683). We also are questioning $29,924 in Program fund interest that
STRAC did not return to the Department of Health and Human Services’ Payment Management
System (PMS). In addition, we found that program year 2003 accounting records did not support
the final financial status report and that DFWHC did not properly monitor its hospitals.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $487,077 to HRSA;

   •   refund $29,924 to the PMS;

   •   strengthen its review process to detect future unallowable expenditures;




                                                i
   •	 ensure that regional advisory councils and hospital planning councils strengthen their
      review process to detect future unallowable expenditures;

   •	 ensure that STRAC:

       1) supports salary charges with an after-the-fact determination of actual employee
          activities,

       2)	 has employees allocate time between grants for total activity and sign their
           timesheets,

       3) follows generally accepted accounting principles and expends Program funds by the
          end of the Federal program funding period, and

       4)	 remits any interest earned on Program funds in excess of $250 for every program year
           to PMS;

   •	 inform regional advisory councils and hospital planning councils about the correct
      handling of interest earned on Program funds;

   •	 ensure that future costs are adequately documented in the accounting records; and

   •	 monitor grant- and subgrant-supported activities to assure compliance with applicable
      Federal requirements.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency agreed with all but one of our findings and
provided information on actions that it had taken or planned to take on our recommendations.
After we issued our draft report, the State agency provided supporting documentation for
$20,536 in program year 2003 expenditures related to a vehicle tracking system. The State
agency did not provide support showing that it had approval to spend an additional $2,940 in
program year 2005 on purchases related to the vehicle tracking system. After review of the State
agency’s comments and additional information, we revised the report where appropriate.
However, we continue to recommend that a total of $487,077 in unallowable expenses be
refunded to HSRA. The State agency’s comments are included as Appendix I.




                                                ii
                                                 TABLE OF CONTENTS 

                                                                                                                         Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1         

              Bioterrorism Hospital Preparedness Program..............................................1                             

              Bioterrorism Program Funding ...................................................................1                     

              Texas Bioterrorism Program .......................................................................1                   


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective .....................................................................................................2     

               Scope ...........................................................................................................2   

               Methodology ...............................................................................................3         


FINDINGS AND RECOMMENDATIONS ....................................................................3 


          UNALLOWABLE EXPENDITURES ...................................................................4                             

              State Agency Administrative Expenditures ................................................4 

              Southwest Texas Regional Advisory Council Expenditures .......................5 

              Dallas-Fort Worth Hospital Council Expenditures......................................8                                


          UNDOCUMENTED EXPENDITURES ...............................................................10                               

              Dallas-Fort Worth Hospital Council Expenditures ...................................10                                 

              Southwest Texas Regional Advisory Council Undocumented 

              Administrative Expenditures ....................................................................11 


          INTEREST EARNED ON FUNDS NOT RETURNED .......................................11 


       ACCOUNTING RECORDS DID NOT SUPPORT                               

        FINANCIAL STATUS REPORT..........................................................................12 


          INSUFFICIENT MONITORING OF HOSPITALS BY 

            DALLAS-FORT WORTH HOSPITAL COUNCIL ..........................................12 


          RECOMMENDATIONS ......................................................................................13                  


          STATE AGENCY COMMENTS AND 

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................14 





                                                                   iii
APPENDIXES

   A – SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL
        HOSPITALS

   B – SUMMARY OF UNALLOWABLE AND UNDOCUMENTED 

        EXPENDITURES 


   C – SUMMARY OF STATE AGENCY UNALLOWABLE ADMINISTRATIVE
        EXPENDITURES

   D – SUMMARY OF SOUTHWEST TEXAS REGIONAL ADVISORY COUNCIL
        UNALLOWABLE PAYROLL EXPENDITURES

   E – SUMMARY OF SOUTHWEST TEXAS REGIONAL ADVISORY
        COUNCIL UNALLOWABLE ADMINISTRATIVE EXPENDITURES

   F – SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL 

         UNALLOWABLE HOSPITAL EXPENDITURES 


   G – SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL
        HOSPITAL REFUNDS NOT RETURNED

   H – SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL
        UNDOCUMENTED HOSPITAL EXPENDITURES

   I – TEXAS DEPARTMENT OF STATE HEALTH SERVICES COMMENTS




                                iv
                                            INTRODUCTION 


BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the Program) provided funding to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies.1 The Health Resources and Services Administration (HRSA) administered the
Program until March 2007. At that time, responsibility for the Program was transferred from
HRSA to the Assistant Secretary for Preparedness and Response pursuant to the Pandemic and
All-Hazards Preparedness Act (P.L. 109-417, December 19, 2006).

Bioterrorism Program Funding

Grants awarded in program years 2003 through 2005 were funded through 1-year appropriations.
HRSA initially established 12-month program years for 2003 through 2005 and then extended
the years for up to 24 additional months.2

To monitor the expenditure of these funds, HRSA required awardees to submit financial status
reports (FSR) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b)(3)) for Department of Health and Human Services (HHS)
grants to State and local governments state: “If the Federal agency does not specify the
frequency of the report, it will be submitted annually.” Because Program guidance for 2003 was
silent on the frequency of submission, annual FSRs were required for that year. Program
guidance for 2004 and 2005 required quarterly interim FSRs and a final FSR 90 days after the
end of the budget period, which we refer to in this report as a “program year.”

Texas Bioterrorism Program

The Texas Department of State Health Services (the State agency) entered into cooperative
agreements with HRSA to implement the Program. (A cooperative agreement is an award of
financial assistance under which substantial collaboration is anticipated between the HHS
awarding agency and the recipient during the project.) Subsequently, the State agency entered
into contracts with 19 regional advisory councils and 1 hospital planning council (20 total
subrecipients) to administer the HRSA grant.


1
 Congress initially authorized funding for this program under the Department of Defense and Emergency
Supplemental Appropriations for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,
P.L. 107-117, through the Public Health and Social Services Emergency Fund at section 319 of the Public Health
Service Act (42 U.S.C. § 247d). Then, in June 2002, Congress enacted section 319C-1 of the Public Health Service
Act (42 U.S.C. § 247d-3a) to support efforts to counter potential terrorist threats and other public health
emergencies.
2
 For Texas, program year 2003 was September 1, 2003, to February 28, 2006; program year 2004 was September 1,
2004, to August 31, 2006; and program year 2005 was September 1, 2005, to August 31, 2007.


                                                       1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs that were reasonable,
allocable, and allowable.

Scope

Our review covered $11,384,210 in Program expenditures recorded in the State agency’s
accounting records during the period September 1, 2004, through August 31, 2006, regardless of
the grant year to which the obligations and expenditures were related.

We selected nonstatistical samples of State agency, Dallas-Fort Worth Hospital Council
(DFWHC), and Southwest Texas Regional Advisory Council (STRAC) expenses related to
payroll, travel, equipment, supplies, and services. We also selected a nonstatistical sample of
DFWHC hospitals. We reviewed the supporting documentation to ensure that each hospital was
spending funds according to Program guidance. We did not select a sample of STRAC hospitals
to review because STRAC expended the funds for the hospitals. We reviewed $4,760,383 of the
$5,020,175 in STRAC hospital expenditures.

The table below summarizes the State agency, DFWHC, and STRAC Program expenditures.

                       Summary of Reviewed Program
                              Expenditures
                               Total         Expenditures
                Entity     Expenditures        Reviewed
            State agency     $4,711,664        $1,247,901
            DFWHC            14,927,780         4,915,385
            STRAC             5,413,392         5,220,924
             Total          $25,052,836       $11,384,210

(See Appendix A for a summary of DFWHC hospitals.)

We did not review the State agency’s, DFWHC’s, or STRAC’s overall internal control structure.
We limited our internal control review to obtaining an understanding of their accounting and
monitoring procedures, if they had monitoring procedures in place.

We performed fieldwork at State agency, DFWHC, and STRAC offices from November 2006
through January 2008. In May 2008, we performed additional fieldwork at DFWHC, selected
DFWHC hospitals, and the Texas Hospital Association.




                                               2

Methodology

To accomplish our objective, we:

   •	 identified awarded and expended funds in the State agency’s accounting records;

   •	 reviewed the State agency’s “Notice of Cooperative Agreement” documentation and
      related Federal regulations to gain an understanding of financial and program
      requirements;

   •	 reviewed FSRs for completeness and accuracy and reconciled the amounts reported to the
      accounting records and “Notice of Grant Award” documentation;

   •	 reviewed the State agency’s contracts with subrecipients;

   •	 determined the State agency’s, DFWHC’s, and STRAC’s accounting procedures for
      recording and reporting funds;

   •	 obtained a list of the amounts drawn down by the State agency from the Department of
      Health and Human Services’ Payment Management System (PMS) and compared them
      to the amounts expended to ensure that drawdowns did not exceed expenditures;

   •	 selected and reviewed nonstatistical samples of State agency, DFWHC, and STRAC
      expenditures;

   •	 reviewed sampled hospitals’ expenditures;

   •	 reviewed selected payroll records at Texas Hospital Association;

   •	 reviewed State agency monitoring procedures; and

   •	 determined whether DFWHC and STRAC had any monitoring procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $11,384,210 in Program expenditures that we reviewed, the State agency claimed
$637,215 in unallowable and undocumented expenditures. Because the State agency reimbursed
$150,138 of this amount for unallowable hurricane expenditures, we are questioning only
$487,077 of these costs. (See Appendix B for a summary of unallowable and undocumented
expenditures.) We also are questioning $29,924 in Program fund interest that STRAC did not


                                               3

return to PMS. In addition, we found that program year 2003 accounting records did not support
the final FSR and that DFWHC did not properly monitor its hospitals.

UNALLOWABLE EXPENDITURES

The State agency claimed unallowable expenditures totaling $156,318. Because the State agency
reimbursed $150,138 of this amount, we are questioning only $6,180 of these costs. In addition,
STRAC and DFWHC claimed unallowable expenditures totaling $459,214. Of this amount:

   •	 STRAC claimed $424,867, which included $331,786 in payroll expenditures, $91,800 in
      Program expenditures, and $1,281 in administrative expenditures.

   •	 DFWHC claimed $34,347, which included $25,462 in hospital expenditures and $8,885
      in hospital refunds not returned.

State Agency Administrative Expenditures

In accordance with 45 CFR § 92.23(a), “Where a funding period is specified, a grantee may
charge to the award only costs resulting from obligations of the funding period unless carryover
of unobligated balances is permitted, in which case the carryover balances may be charged for
costs resulting from obligations of the subsequent funding period.”

Regulations (2 CFR part 225, Appendix A, section C.1.b (formerly OMB Circular A-87)), state
that to be allowable under Federal awards, costs must be “allocable to Federal awards under the
provisions of 2 CFR part 225.”

Pursuant to 2 CFR part 225, Appendix A, section C.3.a, “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.”

The State agency claimed $156,318 in unallowable expenditures for hurricane purchases, a
vehicle tracking system, and travel for an employee of another program. Because the State
agency reimbursed $150,138 of this amount, we are questioning only $6,180 of these costs. (See
Appendix C for a summary of State agency unallowable administrative expenditures.)

The Federal Emergency Management Agency (FEMA) reimbursed the State agency for
hurricane expenditures that FEMA deemed allowable. However, FEMA did not reimburse the
State agency for expenditures totaling $150,138, which FEMA determined were unallowable.
These expenditures were for payments made to the Texas Department of Aging and Disability
Services, a pharmaceutical vendor, an individual, and purchases made at a retail store. When we
brought these expenditures to the State agency’s attention, an official said that the expenditures
should have been paid from general revenue funds. As a result, the State agency reimbursed the
Program for the $150,138 in unallowable hurricane expenditures.




                                                 4

When we asked whether there was approval for the vehicle tracking system expenditures, we did
not receive a response. When we inquired why the State agency paid for the employee’s travel,
the official said that it was coded incorrectly; therefore, it was paid in error from Program funds.

Southwest Texas Regional Advisory Council Expenditures

Unallowable Payroll Expenditures

Regulations (2 CFR part 230, Appendix B, section (8)(m) (formerly OMB Circular A-122)),
state:

       Support of salaries and wages:

           (1) Charges to awards for salaries and wages, whether treated as direct costs
               or indirect costs, will be based on documented payrolls approved by a
               responsible official(s) of the organization. The distribution of salaries and
               wages to awards must be supported by personnel activity reports, as
               prescribed in subparagraph 8.m.(2) . . . .

           (2) Reports reflecting the distribution of activity of each employee must be
               maintained for all staff members (professionals and nonprofessionals)
               whose compensation is charged, in whole or in part, directly to awards . . . .

                   (a) The reports must reflect an after-the-fact determination of the
                       actual activity of each employee. Budget estimates (i.e., estimates
                       determined before the services are performed) do not qualify as
                       support for charges to awards.
                   (b) Each report must account for the total activity for which employees
                       are compensated and which is required in fulfillment of their
                       obligations to the organization.
                   (c) The reports must be signed by the individual employee, or by a
                       responsible supervisory official having first hand knowledge of the
                       activities performed by the employee, that the distribution of
                       activity represents a reasonable estimate of the actual work
                       performed by the employee during the periods covered by the
                       reports.
                   (d) The reports must be prepared at least monthly and must coincide
                       with one or more pay periods.

The “Financial Administrative Procedures Manual for TDH Contractors,” section 2.5, “Required
Accounting Policies and Procedures, Salary and Wage Distribution Non-Profits,” states:

       The distribution of salaries and wages to all State agency contract attachments for
       nonprofit agencies must be supported by personnel activity reports (time sheets)




                                                 5

       for each employee whose compensation is charged in whole or in part directly to
       the contract attachment. The time sheet must:

           (a) allow the employee to charge time to more than one activity (cost center,
               project, or expense pool),

           (b) reflect an after-the-fact determination of the actual activity of that
               employee for a period of time which coincides with a pay period,

           (c) be signed by the employee and approved by the employee’s supervisor
               (the signatures attest to the validity of the recorded time) and

           (d) reflect the employee’s total activity for the period.

STRAC claimed unallowable payroll expenditures totaling $331,786. STRAC employees did
not allocate their time to show the projects on which they were working, and neither they nor
their supervisor signed the employees’ timesheets. In addition, the State agency found in its
fiscal compliance review that STRAC’s expenditures of salaries and related fringe benefits were
based on predetermined percentages. The State agency’s report stated that the timesheet must
reflect an after-the-fact determination of the actual activity of that employee for a period of time
that coincides with a pay period. (See Appendix D for a summary of STRAC unallowable
payroll expenditures.)

When we requested supporting documentation for the allocation of each employee’s payroll
expenditures, an STRAC official provided an internal document that she had created to keep
track of payroll expenditures. The STRAC official used a predetermined percentage to
determine the amount of salary and related fringe benefits to allocate to the Program. STRAC
should have based the allocation on the timesheet.

When we asked an STRAC official why time was not allocated on the timesheets and why they
were not signed, the official said that employees had allocated their time and signed their
timesheets. However, the timesheets we reviewed did not show time allocations among projects
and did not have signatures. The official also said that documenting an employee’s allocation of
time daily was time consuming.

STRAC employees began signing timesheets at the end of program year 2005. They also began
allocating the time spent working on the Program, though not their total activity. For some
employees who allocated their time, the timesheets we reviewed showed percentages that were
different from the allocations used to determine the salaries and related fringe benefits charged to
the Program. Therefore, STRAC continued to base allocations on predetermined percentages.

Unallowable Program Expenditures

Regulations (2 CFR part 230, Appendix A, section A.2 (formerly OMB Circular A-122)), state
that costs must be “determined in accordance with generally accepted accounting principles” and
“adequately documented” to be allowable under an award.



                                                  6

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

Regulations (2 CFR part 225, Appendix A, section C.1.b (formerly OMB Circular A-87)), state
that to be allowable under Federal awards, costs must be “allocable to Federal awards under the
provisions of 2 CFR part 225.”

In accordance with 2 CFR part 225, Appendix A, section C.3.a, “A cost is allocable to a
particular cost objective if the goods or services involved are chargeable or assignable to such
cost objective in accordance with relative benefits received.”

Regulations (2 CFR part 230, Appendix A, section A.2.a) state that to be allowable under an
award, costs must be “reasonable for the performance of the award and be allocable thereto
under these principles.”

Pursuant to 2 CFR part 230, Appendix A, section A.4.a,:

       A cost is allocable to a particular cost objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost
       is allocable to a Federal award if it is treated consistently with other costs incurred
       for the same purpose in like circumstances and if it:

           (1) Is incurred specifically for the award.

           (2) Benefits both the award and other work and can be distributed in
               reasonable proportion to the benefits received, or

           (3) Is necessary to the overall operation of the organization, although a direct
               relationship to any particular cost objective cannot be shown.

STRAC entered into a 2-year agreement with the Greater San Antonio Hospital Council
(GSAHC) and prepaid $157,210 for salary and related expenses for an individual to develop a
crisis information management system. STRAC prepaid the expenditures and reported them as
expended, which was not in accordance with generally accepted accounting principles. Officials
should have recorded the expenditures as prepaid and written them off monthly. The State
agency reported this to STRAC in the State agency’s fiscal compliance review. STRAC officials
stopped the practice after the State agency’s review and told us that they had not known that
prepaying expenditures and recording them as expended was not an acceptable practice.

In addition, STRAC claimed $91,800 in unallowable Program expenditures that were not
allocable to program year 2004. STRAC spent $79,611 after the Federal Program funding period
ended, and $12,189 was not expended by the end of our fieldwork. When we asked why the
$79,611 was spent after the funding period, officials said that the funding period changed several
times. However, because the 2-year agreement was for one individual’s salary and related
expenses beginning in September 2005, STRAC would not have been able to expend the funds


                                                 7

by August 31, 2006 (the end of program year 2004). Regarding the $12,189 of prepaid funds
that GSAHC had not expended by the end of our fieldwork, an STRAC official said that the
funds had not been expended because the services that STRAC purchased cost less than
anticipated.

Unallowable Administrative Expenditures

Regulations (2 CFR part 230, Appendix A, section A.2.a (formerly OMB Circular A-122)), state
that to be allowable under an award, costs must be “reasonable for the performance of the award
and be allocable thereto under these principles.”

Pursuant to 2 CFR part 230, Appendix A, section A.4.a:

        A cost is allocable to a particular cost objective, such as a grant, contract, project,
        service, or other activity, in accordance with the relative benefits received. A cost
        is allocable to a Federal award if it is treated consistently with other costs incurred
        for the same purpose in like circumstances and if it:

           (1) Is incurred specifically for the award.

           (2) Benefits both the award and other work and can be distributed in
               reasonable proportion to the benefits received, or

           (3) Is necessary to the overall operation of the organization, although a direct
               relationship to any particular cost objective cannot be shown.

STRAC claimed $1,281 in unallowable administrative expenditures for a sympathy dinner, a
parking ticket, and appreciation certificates for hurricane volunteers. An STRAC official said
that he thought the dinner and certificates were allowable. The parking ticket was paid in error
out of Program funds. (See Appendix E for a summary of STRAC unallowable administrative
expenditures.)

Dallas-Fort Worth Hospital Council Expenditures

Unallowable Hospital Expenditures

Pursuant to 45 CFR part 74, Appendix E, section III.D.1, “A cost is allocable to a particular cost
center (i.e., a specific function, project, research agreement, department, or the like) if the goods
or services involved are chargeable or assignable to such cost center in accordance with relative
benefits received or other equitable relationship.”

We identified $25,462 in unallowable hospital expenditures:

    •   unallowable food and miscellaneous expenditures,
    •   a duplicate payment,
    •   duplicate expenditure receipts submitted in program years 2004 and 2005,



                                                  8

    •	 hospital expenditures not related to the Program,
    •	 an unallowable hospital bed expenditure, and
    •	 training expenditures occurring after the program year.

(See Appendix F for a summary of DFWHC unallowable hospital expenditures.)

DFWHC officials provided the following explanations for the unallowable expenditures:3

    •	 DFWHC did not accept receipts for unallowable food and miscellaneous expenditures.
       (The supporting documentation provided to us showed that the food and miscellaneous
       expenditures were accepted.)

    •	 The duplicate payment was an administrative error by DFWHC.

    •	 Duplicate expenditure receipts for program years 2004 and 2005 were allowed in error
       because the program years overlapped. Also, there was no protocol in place to compare
       documentation submitted for another program year.

    •	 DFWHC did not explain why it accepted hospital expenditures not related to the
       Program. DFWHC agreed that there was a difference between what the hospital reported
       as Program expenditures and the supporting invoices. A hospital official stated that there
       was a difference between the invoices and the amounts paid to the vendor, which
       included the cost of items not related to the Program.

    •	 DFWHC approved the birthing bed because the State agency approved the purchase.
       When we informed the State agency that the bed was a birthing bed, State agency
       officials agreed that it was an unallowable expenditure.

    •	 DFWHC officials did not know why they had allowed expenditures for training that
       occurred after the program year.

Hospital Refunds Not Returned by DFWHC

Pursuant to 45 CFR § 92.52(a), “Any funds paid to a grantee in excess of the amount to which
the grantee is finally determined to be entitled under the terms of the award constitute a debt to
the Federal Government . . . .”

In accordance with 45 CFR § 74.73(a), “Any funds paid to a recipient in excess of the amount to
which the recipient is finally determined to be entitled under the terms and conditions of the
award constitute a debt to the Federal Government . . . .”

We identified three hospitals that returned $8,885 in program year 2004 funds that DFWHC did
not refund to the State agency. (See Appendix G for a summary of DFWHC hospital refunds not

3
 DFWHC disburses Program funds to the hospitals and then reviews supporting documentation for Program
expenditures.


                                                     9

returned.) An official said that DFWHC did not submit the funds to the State agency because the
refunds from hospitals were not always received before DFWHC had submitted a check to the
State agency for unexpended Program funds. However, timing was not always the reason the
State agency did not receive the Program funds because, in some instances, hospitals had
submitted refunds to DFWHC prior to DFWHC submitting a check to the Stage agency.

UNDOCUMENTED EXPENDITURES

Two subrecipients failed to provide documentation totaling $21,683. Of this amount:

    •	 DFWHC claimed $18,595, which included $18,237 for hospital expenditures and $358
       for travel expenditures.

    •	 STRAC claimed $3,088 for administrative expenditures.

Dallas-Fort Worth Hospital Council Expenditures

Undocumented Hospital Expenditures

Regulations (2 CFR part 230, Appendix A, section A.2.g (formerly OMB Circular A-122)), state
that costs must be “adequately documented” to be allowable under an award.

In accordance with 45 CFR § 74.21(b)(7), recipients’ financial management systems should
provide accounting records, including cost accounting records, that are supported by source
documentation.

The DFWHC program year 2005 Expenditure Plan states that the certified financial officer
certifies with his or her signature that the information is true and accurate to the best of his or her
knowledge and that he or she understands that HRSA, the State agency, and/or DFWHC can
require additional supporting documentation.

We identified seven hospitals that did not provide supporting documentation for Program
expenditures totaling $23,025:4

    •	 One hospital provided documentation for the funds received from DFWHC; however, the
       documentation did not support expenditures totaling $6,269. DFWHC officials used
       supporting documentation for a shelter purchased in program year 2003 to support the
       shelter purchased in program year 2004.

    •	 One hospital provided supporting documentation for $191 of $275 in expenditures, but
       we were unable to determine from the documentation whether the amount had been paid.
       The remaining $84 was not supported. A hospital official said that the hospital had
       supported the $191 but did not have support for $84.

4
 We are recommending that DFWHC repay $18,237 of this amount because DFWHC overpaid the State agency
$4,788.


                                                  10 

   •	 Five hospitals were unable to support expenditures totaling $16,481. Hospital officials
      said that they did not have the support.

(See Appendix H for a summary of the DFWHC undocumented hospital expenditures.)

Undocumented Travel Expenditures

Regulations (2 CFR part 230, Appendix A, section A.2.g (formerly OMB Circular A-122)), state
that costs must be “adequately documented” to be allowable under an award.

DFWHC did not provide support for travel expenditures totaling $358 for program year 2005.
We requested support for the travel charges several times, but DFWHC would not provide the
supporting documentation.

Southwest Texas Regional Advisory Council Undocumented Administrative Expenditures

Regulations (2 CFR part 230, Appendix A, section A.2.g (formerly OMB Circular A-122)), state
that costs must be “adequately documented” to be allowable under an award.

STRAC did not provide supporting documentation for program year 2005 expenditures totaling
$3,088. STRAC prepaid GSAHC $275,793 for administrative services but provided supporting
documentation for only $272,705. GSAHC did not return the funds to STRAC until after
program year 2005 was over; therefore, STRAC could not spend the funds on Program
expenditures.

INTEREST EARNED ON FUNDS NOT RETURNED

Regulations (45 CFR § 74.22(l)) state: “. . . interest earned on Federal advances deposited in
interest bearing accounts shall be remitted annually to the Department of Health and Human
Services, Payment Management System . . . . Interest amounts up to $250 per year may be
retained by the recipient for administrative expense.”

Pursuant to the “HHS Grants Policy Statement,” page II-64:

    Interest earned on advances of Federal funds must be handled as follows:

       •	 Nongovernmental recipients. Any interest earned by nongovernmental recipients
          on advances of Federal funds under all Federal grant awards and subawards that,
          in the aggregate, exceeds $250 per year (based on the recipient’s or
          subrecipient’s fiscal year) must be remitted annually to PMS (as the government-
          wide agent for collection).

STRAC did not remit $29,924 in interest earned on Program funds to PMS. Interest earned on
Program funds remained in an interest-bearing money market account because the State agency
did not provide guidance to STRAC regarding interest earned.




                                               11 

ACCOUNTING RECORDS DID NOT SUPPORT FINANCIAL STATUS REPORT

Regulations (2 CFR part 225, Appendix A, section C.1.j (formerly OMB Circular A-87)), state
that costs must be “adequately documented” to be allowable under Federal awards.

Regulations (45 CFR § 92.20(a)(2)) state: “Fiscal control and accounting procedures of
the State, as well as its subgrantees and cost-type contractors, must be sufficient to permit
the tracing of funds to a level of expenditures adequate to establish that such funds have
not been used in violation of the restrictions and prohibitions of applicable statutes.”

The program year 2003 accounting records did not support the final FSR. The FSR showed that
all funds had been expended by the end of the program year; however, the accounting records
showed an unobligated balance of $3,005,125.

A State agency official said that expenditures for program year 2003 were mistakenly coded to
program year 2004 because both program years ran concurrently for 18 months. Prior to our
review, officials were working to resolve the coding error, but an accounting system problem
caused a delay. Because program year 2003 had ended, the accounting system would not allow
expenditure transfers. When we inquired about the unobligated balance, officials again worked
on a solution to the problem. As of February 14, 2008, the accounting records showed program
year 2003 funds as expended.

INSUFFICIENT MONITORING OF HOSPITALS BY DALLAS-FORT WORTH
HOSPITAL COUNCIL

Pursuant to 45 CFR § 92.40, “Grantees must monitor grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved.”

Regulations (45 CFR § 74.51(a)) state that recipients are responsible for managing and
monitoring each project, program, subaward, function, or activity supported by the award.

In accordance with 45 CFR § 74.21(b)(6) and (7), recipients’ financial management systems
should provide for the following: “Written procedures for determining the reasonableness,
allocability and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award” and “[a]ccounting records, including
cost accounting records, that are supported by source documentation.”

The program year 2005 contract with the State agency states: “Performing agency shall monitor
all of its agreements with hospitals to assure that all funds are appropriately spent . . . .”

DFWHC did not properly monitor hospitals because it did not consistently review receipts and
other supporting documentation to verify that expenditures were acceptable. DFWHC did not
have formal monitoring policies or procedures. When we asked for supporting documentation
for the sampled hospitals’ expenditures, DFWHC did not have all the documentation required.
The expenditure plans that hospitals submitted stated that the hospitals understood that they



                                                 12 

could be required to provide additional supporting documentation. We made numerous requests
for the supporting documentation through DFWHC, but the hospitals provided none of the
documentation. Subsequently, we contacted the hospitals directly, but they did not have the
documentation. Without supporting documentation, DFWHC had no assurance that the
expenditures were paid or that the hospitals were spending Program funds on allowable
expenditures.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $487,077 to HRSA;

   •	 refund $29,924 to the PMS;

   •	 strengthen its review process to detect future unallowable expenditures;

   •	 ensure that regional advisory councils and hospital planning councils strengthen their
      review process to detect future unallowable expenditures;

   •	 ensure that STRAC:

       1) supports salary charges with an after-the-fact determination of actual employee
          activities,

       2)	 has employees allocate time between grants for total activity and sign their
           timesheets,

       3) follows generally accepted accounting principles and expends Program funds by the
          end of the Federal program funding period, and

       4)	 remits any interest earned on Program funds in excess of $250 for every program year
           to PMS;

   •	 inform regional advisory councils and hospital planning councils about the correct
      handling of interest earned on Program funds;

   •	 ensure that future costs are adequately documented in the accounting records; and

   •	 monitor grant- and subgrant-supported activities to assure compliance with applicable
      Federal requirements.




                                               13 

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency agreed with all but one of our findings and
provided information on actions that it had taken or planned to take on our recommendations.
After we issued our draft report, the State agency provided supporting documentation for
$20,536 in program year 2003 expenditures related to a vehicle tracking system. The State
agency did not provide support showing that it had approval to spend an additional $2,940 in
program year 2005 on purchases related to the vehicle tracking system. After review of the State
agency’s comments and additional information, we revised the report where appropriate.
However, we continue to recommend that a total of $487,077 in unallowable expenses be
refunded to HSRA. The State agency’s comments are included as Appendix I




                                               14 

APPENDIXES 

                                                              APPENDIX A
 





   SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL HOSPITALS
 



                                      Dollar            Dollar
                                     Value of         Value of
 Program      Total      Hospitals   Hospital      Hospital Receipts
   Year      Hospitals   Reviewed    Receipts         Reviewed

2004           120          34        $6,273,556         $1,286,869
2005           114          25         8,240,809          1,303,169
   Total                             $14,514,365         $2,590,038
                                                                       APPENDIX B
 





      SUMMARY OF UNALLOWABLE AND UNDOCUMENTED EXPENDITURES
 



                                                           Total
   Entity         Type of Questioned Expenditures         Amount      Appendix

State agency   Unallowable administrative expenditures      $6,180   Appendix C
                 Total                                      $6,180


STRAC          Unallowable payroll expenditures           $331,786   Appendix D
STRAC          Unallowable Program expenditures             91,800        -
STRAC          Unallowable administrative expenditures       1,281   Appendix E
DFWHC          Unallowable hospital expenditures            25,462   Appendix F
DFWHC          Hospital refunds not returned                 8,885   Appendix G
                 Total                                    $459,214


DFWHC          Undocumented hospital expenditures          $18,237   Appendix H
DFWHC          Undocumented travel expenditures                358        -
STRAC          Undocumented administrative expenditures      3,088        -
                 Total                                     $21,683


                 Total Unallowable and
                   Undocumented Expenditures              $487,077
                                                                           APPENDIX C




                         SUMMARY OF STATE AGENCY
 

                  UNALLOWABLE ADMINISTRATIVE EXPENDITURES
 



         Program Year 2004                  Amount          Reason for Disallowance

Hurricane expenditures                      $150,138    Unallowable Program expenditures
Travel for another program's employee          3,240        Not allocable to Program
   Total                                    $153,378


         Program Year 2005                  Amount          Reason for Disallowance

Vehicle tracking system                       $2,940      No approval for expenditures
  Total                                       $2,940


Grand total for State agency
  Unallowable administrative expenditures   $156,318
Hurricane expenditures                      (150,138)
  Total unallowable                           $6,180
                                                                       APPENDIX D




   SUMMARY OF SOUTHWEST TEXAS REGIONAL ADVISORY COUNCIL
            UNALLOWABLE PAYROLL EXPENDITURES


 Program
   Year     Amount                   Reason for Disallowance
2003          $88,438   Timesheets do not show allocation of time for Program
2004          127,347   Timesheets do not show allocation of time for Program
2005          116,001   Timesheets do not show allocation of time for Program
   Total     $331,786
                                                                       APPENDIX E
 





          SUMMARY OF SOUTHWEST TEXAS REGIONAL ADVISORY COUNCIL
 

               UNALLOWABLE ADMINISTRATIVE EXPENDITURES
 



      Program Year 2004        Amount           Reason for Disallowance

Appreciation certificates       $1,223       Unallowable Program expenditure
  Total                         $1,223


       Program Year 2005       Amount           Reason for Disallowance

Sympathy dinner                   $38        Unallowable Program expenditure
Parking ticket                     20        Unallowable Program expenditure
   Total                          $58


   Total unallowable            $1,281
                                                                        APPENDIX F




           SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL 

                UNALLOWABLE HOSPITAL EXPENDITURES
 



 Program Year 2004 Hospitals       Amount         Reason for Disallowance

Chillicothe
  Food and miscellaneous items       $141    Unallowable Program expenditures
HealthSouth Rehabilitation Plano      125    DFWHC duplicate payment
Medical Center of Mesquite
  Abatement machine, personal
  computer, and laptop              12,544   Duplicate Program expenditures
  Total                            $12,810


 Program Year 2005 Hospitals       Amount         Reason for Disallowance

Nocona General                       $812    Not allocable to Program
Seymour
  Birthing bed                      10,000   Unallowable Program expenditure
Wilbarger
  Training                           1,840   Purchase after the program year
  Total                            $12,652


  Total unallowable                $25,462
                                                                          APPENDIX G
 





             SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL 

                    HOSPITAL REFUNDS NOT RETURNED
 



  Program Year 2004 Hospitals          Amount         Reason for Disallowance

Glen Oaks Hospital                       $7,483   Funds not returned to State agency
Green Oaks Hospital                       1,245   Funds not returned to State agency
HealthSouth Rehabilitation-Arlington        157   Funds not returned to State agency
   Total                                 $8,885
                                                                                           APPENDIX H




                SUMMARY OF DALLAS-FORT WORTH HOSPITAL COUNCIL 

                     UNDOCUMENTED HOSPITAL EXPENDITURES
 




                                                 Undocumented
     Program Year 2004 Hospitals                   Amount                  Reason for Disallowance

Bowie Memorial                                             $6,269                    No support
Texas Specialty-Wichita Falls                                 275                    No support
  Total                                                    $6,544


                                                 Undocumented
     Program Year 2005 Hospitals                   Amount                  Reason for Disallowance

Bowie Memorial                                             $197                      No support
Graham Regional                                            4,626                     No support
Medical Center of Mesquite                                 6,197                     No support
Nocona General                                             1,725                     No support
Texas Specialty Hospital of Dallas                         3,736                     No support
  Total                                                  $16,481


Total undocumented                                       $23,025
Texas Specialty-Wichita Falls                             (4,788)               *See note below
  Grand Total undocumented                               $18,237


*DFWHC refunded the State in error. The hospital provided support for this amount.
                                                                                                            Appendix I 

                                                                                                            Page 1 of 5 





                       TEXAS DEPARTMENT OF STATE HEALTH SERVICES

                                                                                        P.O. Box 149347
                                                                               Austin, Texas 78714-9347
                                                                                         1-888-963-71 I 1
DAVID L. LAKEY, M.D.                                                              TTY: 1-800-735-2989
COMMISSIONER                                                                        www.dshs.state.tx.us



                                       September 10, 2008


Gordon Sato, Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services
Department of Health and Human Services
1100 Commerce, Room 632
Dallas, TX 75242

Re:    Report A-06-07-00011

Dear Me. Sato:

The Department of State Health Services (DSHS) has received and reviewed your agency's draft
report entitled "Review of Texas Bioterrorism Hospital Preparedness Program." Our response to
the findings and recommendations included in the report is attached to this correspondence.

We appreciate your staff's willingness to provide assistance and information during this review
process. We look forward to working with you to improve the Hospital Preparedness program in
Texas.

If you have any questions or comments conceming this response, please contact Ms. Patricia
Melchior, Director, Contract Management Unit. Ms. Melchior may be reached by telephone at
1-888-963-7111, extension 2115, or bye-mail tOl2uttv.melchior@dshs.state.tx.us.



S$)pM~
Adolfo M. Valadez, M.D., M.P.H.
Assistant Commissioner for Prevention and Preparedness
Texas Department of State Health Services




                       An Equal Employment Opportunity Employer and Provider
                                                                                              Appendix I 

                                                                                              Page 2 of 5 





                              Management Response
                                       To
                              Report A-06-07-000l1
           Review of Texas Bioterrorism Hospital Preparedness Program


The Department of State Health Services provides the following management response to
the fmdirigs regarding unallowable expenditures; tmdocumented expenditures; interest
earned on federal funds; accounting records; and monitoring of hospitals by a former
DSHS sub-recipient.

UNALLOWABLE EXPENDITURES

The draft report details unallowable expenditures totaling $485,930. Of these
expenditures, $26,716 is related to costs incurred by DSHS as the state administrative
agency; $424,867 is related to costs incurred by a sub-recipient, Southwest Texas
Regional Advisory Council (STRAC); and the remaining $34,347 is related to costs
incurred by a former sub-recipient, Dallas-Fort Worth Hospital Council (DFWHC).

DSHS Expenditures
Of the original $176,854 in unallowable DSHS expenditures as determined by DIG,
$150,138 has been reimbursed to the funding agency. The remaining $26,716 consists of
$23,476 for a tracking system ($20,536 in Program Year 2003 and $2,940 in Program
Year 2005) and $3,240 for travel expenses.

DSHS requests reconsideration of the disallowed tracking system costs in the amount of
$23,476 as the system supports hospitals' ability to respond and place resources in the
event of an emergency. The "Track your Truck" program allows emergency managers
and local public health officials to identify locations of radiological emergency response
vehicles, fire rescue vehicles and ambulances. This ability allows field monitoring leaders
to strategically place and track medical and radiological monitoring teams, medical
facility liaisons, couriers and contamination control teams in response to events involving
radiological dispersal devices (dirty bombs) and other radiological incidents throughout
Texas. Field teams are equipped to provide radioisotope identification and transmit
results in the field to team leaders. This information is to be provided to the medical
facility liaison in order to assist hospital emergency room staff to treat
contaminated/injured victims. The ability to track vehicles provides status of their
deployment and provides for more efficient placement of resources to aid in the
emergency response.

The disallowed travel expenses in the amount of $3,240 were inadvertently charged to
FY2005 Hospital Preparedness funding. If required, DSHS will refund this amount.




                                             1
                                                                                             Appendix I 

                                                                                             Page 3 of 5 





Southwest Texas Regional Advisory Council Expenditures (STRAC)
The unallowable expenditures reported for STRAC total $424,867. Of this amount,
$331,786 is related to payroll expenditures, $91,800 is related to program expenditures,
and $1,281 is related to administrative expenditures.

DSHS concurs with the issue of non-compliance regarding STRAC timesheets and agrees
that STRAC must maintain a compliant timekeeping system. DSHS requests
reconsideration of the request to recoup $331,786 for questioned payroll costs. DSHS
regularly reports this type of non-compliance finding in its monitoring of DSHS sub­
recipients and questions the payroll costs. Typically, the amounts disallowed and
recouped are minimal due to documentation, in lieu of timesheets, that substantiates the
majority of questioned payroll costs were expended for the contract. DSHS will ensure
that STRAC establishes a compliant timekeeping system.

Of the questioned amount of $91,800 for program expenditures related to WEB EOC
development, $79,611 was expended by August 31, 2006. The remaining $12,189 has
been expended on costs for WEB EOC. This project is a HRSA/OASPR approved
project to increase grant communications and interoperability; the work done by STRAC
is a vital part of the completion and success of these efforts. The period of availability
was extended for this funding and there was discussion of further extensions. In
consideration of the importance of the project, its completion and implementation and
questions regarding funding periods, DSHS requests an extension of the funding so that
the questioned amount of $91,800 may be applied to costs incurred during the
completion of this project.

DSHS concurs with disallowed administrative expenditures in the amount of $1,281, and
will request refund of this amount from STRAC.

Dallas-Fort Worth Hospital Council (DFWHC)
The unallowable expenditures reported for DFWHC are comprised of $25,462 for
unallowable hospital expenditures and $8,885 for hospital refunds not returned to DSHS.

DSHS concurs with these unallowable amounts and intends to pursue recoupment.
DSHS requests confirmation from DHHS OIG that these unallowable amounts were not
previously repaid to DSHS in response to costs disallowed by a DSHS financial
monitoring review finalized in 2007.

Controls

DSHS concurs with recommendations regarding documentation requirements for salary
charges. DSHS provided training on financial requirements, including required
documentation, to current hospital preparedness contractors in Spring 2008 and will
continue to provide technical assistance to contractors as needed and requested. DSHS
monitoring activities will continue to address documentation requirements.




                                             2
                                                                                              Appendix I 

                                                                                              Page 4 of 5 





DSHS concurs with recommendations regarding requirements to follow GAAP in
expending program funds. More recently, the funding periods for this program have been
more stable and, as a result, DSHS and the contractors can better prepare and plan for
completion of program activities and expenditure of funds.


UNDOCUMENTED EXPENDITURES

The draft report details undocumented expenditures in the amount of $21,683. Of this
amount, $18,595 is related to expenditures incurred by DFWHC, and $3,088 is related to
amounts incurred by STRAC.

DFWHC
The undocumented expenditures for DFWHC include $18,237 for hospital expenditures
and $358 for travel expenditures.

DSHS concurs with these disallowed amounts and intends to pursue recoupment of these
amounts. DSHS requests conFIrmation from DHHS OIG that these ul1allowable amounts
were not previously repaid to DSHS in response to costs disallowed by a DSHS financial
monitoring review finalized in 2007.

STRAC
The undocumented expenses for STRAC are $3,088 for a refund to STRAC from a
contractor.

DSHS agrees that STRAC received this refund after the funding expired on August 31,
2006, and, therefore, was unable to utilize the funds for allowable expenses. DSHS
requests an extension of these funds to allow STRAC to utilize them for hospital
preparedness-related expenses.

INTEREST EARNED ON FEDERAL FUNDS



OIG identified interest in the mount of $29,924 that was earned by STRAC but not
returned.

DSHS agrees that interest earned by STRAC was not returned as required. Subsequent to
the OIG fieldwork, additional interest was identified, for a total of $43,171 in unreturned
interest earned. DSHS will request repayment of this amount.

Controls

DSHS agrees that interest earned in excess of $250 per year must be returned in
accordance with federal requirements. DSHS has communicated this requirement to




                                             3
                                                                                             Appendix I 

                                                                                             Page 5 of 5 





contractors in regularly-scheduled meeting and will continue to ensure that contractors
comply with these requirements.

ACCOUNTING RECORDS

The draft report indicates that all concerns were resolved prior to issuing the report.
DSHS concurs.

Controls

DSHS concurs that future costs should be adequately documented and will continue
efforts to ensure that this requirement is satisfactorily met.

MONITORING OF HOSPITALS BY DALLAS·FORT WORTH HOSPITAL
COUNCIL

The draft report noted insufficient monitoring of hospitals by a former sub-recipient,
Dallas-Fort Worth Hospital Council.

DSHS agrees that monitoring of hospitals to track expenditures is vital to the program. In
late 2007 and early 2008, DSHS convened a workgroup comprised of DSHS persomlel
from program, legal, financial and contracting areas and external stakeholders with the
goal of improving contract compliance with financial requirements. As a result of the
work of this group, DSHS provided training on contract financial requirements to cunent
hospital preparedness contractors. In addition, DSHS is working with all of the current
contractors to transition to a regional pooling of purchases. This would require that the
contractors to make all program-funded purchases for the hospitals in their service area
and will centralize accounting and documentation with the contractor.

Controls

DSHS concurs with recommendations requiring monitoring of subrecipients and their
contractors. DSHS will continue its monitoring of hospital preparedness contractors. In
addition, the DSHS workgroup (mentioned in the paragraph above) focused on
monitoring requirements for the sub-recipients' contractors and provided the
subrecipients with monitoring tools to assist in their efforts.




                                              4
